  Department of Health and Human Servces
          OFFICE OF

     INSPECTOR GENERAL





ALCOHOL , DRUG, AND MENTAL HEALTH

SERVICES FOR HOMELESS INDIVIDUALS





                 Richard P. Kusserow

                 INSPECfOR GENERA


                      MACH 199
                          OFFCE OF INSPECfOR GENRA

The mission of the Offce of Inpector General (OIG), as mandated by Public Law 95- 452 , as
amended , is to protect the integrty of the Department of Health and Human Servce ' (HHS)
programs as well as the health and welfare of beneficiaries selVed by those programs.      Th statutory
mission is carred out    through a nationwide network of audits , investigations , and inspections
conducted by three OIG operating components: the Offce of Audit Servce , the Office of
Investigations , and the Offce of Evaluation and Inpections. The OIG also inorm the Secretary
of HHS of program , and management problems , and recommends courses to correct them.

                              OFFCE OF AUDIT SERVICE
The OIG's    Offce of Audit Servce (OAS) provides all auditing servce for HHS ,                 either by
conducting audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrng out their
respective responsibilities and are intended tp provide independent assessments of HHS programs
and operations in order to reduce waste , abuse , and mismanagement and to promote economy and
efficiency throughout the Department.

                             OFFCE OF INTIGATIONS
The OIG' s Offce of Investigations (01) conducts criminal , civil , and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrchment by
providers. The investigative effort of 01 lead to criminal convictions , adminitrative sanctions , or
civi money penalties. The 01 also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.

                 OFFCE OF EVALUATION AN INSPECTONS
The OIG' s Offce of Evaluation .and Inspections (OEI) conducts short- term management and program
evaluations (called inspections) that focus on issues of concern to the Department , the Congress , and
the public. The fidigs and recommendations contained in these inpection report generate rapid
accurate , and up- to- date information on the efficiency, vulnerabilty, and effectiveness of departmental
programs.

This report was prepared under the direction of Wiliam C. Moran , Regional Inspector General
Offce of Evaluation and Inpections and Natalie Coen, Deputy Regional Inspector General , Offce
of Evaluation and Inpections , Region V. Participating in this project were the following people:

                Chcago. II                                               Heaquars
                Barbara Butz (Project Leader)                            Emilie M. Baebel
                Jenner Antico                                            Susan E. Hardwick
                Pamela S. May                                            W. Mark Krhat
                Kate McFadden
                Emil J. Posavac
  Department of Health and Human Servces
          OFFICE OF

     INSPECTOR GENERAL





ALCOHOL , DRUG, AND MENTAL HEALTH

SERVICES FOR HOMELESS INDIVIDUALS





                  Richard P. Kusserow

                  INSPECfOR GENERA


                      OEI-05-91-002
                EXECUTIVE SUMMARY

PUROSE
This inspection examined how States use the Alcohol , Drug Abuse and Mental Health
Servces (ADMS) block grant to serve homeless individuals with mental health , alcohol
or other drug problems.



BACKGROUN
Recent research suggests that approximately one-third of an estimated 600 000 homeless
population are severely mentally il , at least 40 percent have problems with alcohol , and
an additional 10 percent abuse other drugs. In addition , it is estimated that at least
one- half of the homeless mentally il population also have alcohol or other drug
problems.

The Department's response to homelessness is two- pronged: (1) specially targeted
programs for homeless persons and (2) mainstream programs that serve them as part of
their servce population. The 1987 Stewart B. McKinney Act is the government s major
targeted response to the problem of homelessness; the McKinney Projects for
Assistance in Transition from Homelessness (PATH) program targets the homeless
population with dual diagnosis of serious mental ilness and substance abuse disorders.
In terms of mainstream programs , the ADMS block grant is one of the Department's
largest programs that could serve homeless persons.

The ADMS block grant is administered by the Public Health Servce (PHS). States
may use ADMS funds for grants to community mental health centers and for substance
abuse prevention , treatment , and rehabiltation programs and activities. States are not
mandated to serve the homeless population with ADMS monies; however , they may
choose them as a special target population.

ADMS funding for fiscal year (FY) 1991 is $1.33 bilion; nationally, 20 percent is being
spent for mental health servces , and 80 percent for substance abuse treatment and
prevention. ADMS dollars represent a small portion of total State mental health
expenditures; in 1987 , they accounted for only 2.3 percent of $9.3 bilion spent for
mental health nationally. According to the    1990State Alcohol and Drug Abuse Profie
ADMS dollars represent about 20 percent of all funding for public sector alcohol and
drug abuse treatment servces.

SCOPE AN      METHODOLOY
Besides the ADMS block grant , this study looked at Medicaid and Supplemental
Security Income (SSI). We examined the availability, accessibilty and appropriateness
of these mainstream programs for homeless individuals. This report presents findings
concerning the ADMS block grant; two other reports present findings related to
Medicaid and SSI.

We spoke with 224 ADMS grantees in 10 States: California , Hawaii , Illnois , Ohio
Oregon , Maryland , Missouri , New Jersey, New York, and Texas. A description of the
methodology for this inspection is in Appendix A.

FIINGS
Many  provi who receie ADMS dollrs say th sere homele inviLr but lack
data on nuer sered and seres provi

Homele    inls
thn thoe of othe
                      have proble
                    clits.
                                          tht are more depete sever     and   diff   to treat




For the mot part grantees provi the same seres to homele inivils as to othe
cli.    Some provi specil seres.

Respondts say th seres are approprite for homele
Th   freqtly refer th        elsewhee for serces the do not
                                                              inls
                                                               provi
                                                                         but inomplete.
                                                                        but referals ma not
be efectie.



Respondts strngly agree      that   spcil approache   are need to sere homele peons.

RECOMMNDATIONS

We conclude that it is critical for agencies to work together to develop the expertise
needed to serve homeless individuals and to ensure comprehensive servces for them.
Our recommendations emphasize the ideas of linkage and coordination among different
levels of government , between government agencies , and within local servce systems.

     PHS shoul provi technal astance             to States and othe   PHS-f grntees who
               inLr.
Th

sere homele
Th   Alcoho Drg Abuse, and Mental Health Admtratin shoul
 to all State wi th ne roun of
                                                                        is
                                                                an adviory letter
                                           letter shoul uncore th importnce
for ADMS   gr      to  inlu
                                       fug.
                                                 Th

                          the follwig compone in serg homele                   inivls:
       Specialized training for servce providers , shelter personnel , and volunteers , for
       dealing with the unique problems of this population.

       Developing Memoranda of Understanding or other tyes of formal agreements
       with other servce providers. Agreements would include information-sharing,
       cross- training, technical assistance , development of model programs (including
       outreach, application procedures, resource referral, and coordination with     the
       broader servce community), and model release         plans (including housing) for
       institutionalized persons (Le. in jails or hospitals).

COMM
We received comments from PHS and the Assistant Secretary for Planning and
Evaluation (ASPE). We wish to thank those who commented on this report. The text
of their comments is in Appendix C.

Although PHS concurs with the principles underlying our recommendations , they do not
agree with us that the ADMS block grant is an appropriate mechanism to implement
them. Instead , they propose to rely on their current McKinney- funded      programs.

We believe that both the McKinney Act and the ADMS block grant are valuable
resources for improving servces to this population. A previous OIG study on the
McKinney Act revealed widespread agreement among respondents that McKinney alone
is not the solution to homelessness , and that greater efforts should be made by
mainstream Federal programs to serve the homeless. The ADMS grantees in this study
represent an extremely broad and diverse national network of providers , a large
majority of whom are providing some level of servce to homeless individuals. We do
not think that such a broad mainstream program , funded at $1.33 bilion , should be
overlooked as a mechanism to address the problems identified in this study. We think
that PHS, in bringing its resources to bear on this network , can help improve
considerably the response of these providers to homeless individuals.

We continue to recommend a strong technical assistance role for PHS. However we
have modified our language in the recommendation slightly. We recognize that PHS'
primary responsibilty is to States for the block grant , and to their local McKinney
grantees , who in turn can work - and , we hope , would take every opportunity to do so ­
with local ADMS grantees.

We revised the first finding and made some editorial changes elsewhere in the report
accommodate concerns raised by PHS and ASPE.
              . . . . . . . . . . .                                            . . . . . .. .. .. ................... .. .. .. ...... .. .. ..
                                  : . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. ..
                                                                                                  . ... .. . .. .. .. . . . . . ..




                        TABLE OF CONTENTS

                                                                                                                                    PAGE

EXCU SUMY

INODUCfON .
    Purpose. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

    Scope


    Background


    Methodology


FIINGS
Many providers who receive ADMS dollars say they serve homeless
individuals but lack data on numbers served and servces
provided

Homeless individuals have problems that are more desperate , severe
and dicult to      treat than those of other clients. . . . . . . . . . . . . . . . . . . . . . . . . .. 5
For the most part , grantees provide the same servces to homeless
individuals as to other clients.Some provide special servces

Respondents say their servces are appropriate for homeless individuals
but incomplete. They frequently refer them elsewhere for servces they
do not provide , but referrals may not be effective. ........................ 7


Respondents strongly agree that special approaches are needed to serve
homeless individuals effectively. ...................................... 8

REcx                i\110NS ..........................................

APPENIX A: Methodology

APPENIX B:          Data Verication Sheet                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. B­
APPENIX C: Agency Comments. . . . . . . . . . . . .
                               INTRODUCTION

PUROSE
This inspection examined how States use the Alcohol , Drug Abuse and Mental Health
Servces (ADMS) block grant to serve homeless individuals with mental health , alcohol
or other drug problems.



SCOPE

There is no definitive count of the number of homeless people in the United States
(U. ). The Urban Institute estimated in 1988 that between 567 000 and 600 000 are
homeless in the U. S. on any given night. In March 1991 , the U. S. Census Bureau
counted 178 828 persons in emergency shelters and 49 793 persons at pre- identified
street locations; however , they acknowledge that this is an undercount.

Recent research suggests that approximately one- third of the homeless population are
severely mentally il ,   at least 40 percent have problems with alcohol , and an additional
10 percent abuse other drugs. In addition ,    it is estimated that at least one- half of the
homeless mentally il population also have     alcohol or other drug problems; we refer to
such persons as the " dually diagnosed" in   this report. This study focused on homeless
individuals (as opposed to familes) with these problems; the ' terms " the homeless " or
 homeless individuals " in the report refer strictly to this population.

Federal efforts to assist homeless persons are two- pronged: (1) specially targeted
programs directed at the homeless population , and (2) mainstream programs that serve
homeless clients as a portion of their servce population. The major Federal targeted
response is the 1987 Stewart B. McKinney Act (hereafter referred to as McKinney),
funded for fiscal year (FY) 1991 at $682.3 milion. The McKinney Projects for
Assistance in Transition from Homelessness (PATH) program , funded at $30 milion for
FY 1992 , targets the homeless population with dual diagnosis. A 1990 study by the
Office of Inspector General found that while McKinney programs have helped meet
emergency needs , respondents did not view McKinney as the long- term solution to
homelessness; rather , they advocated greater Federal and State efforts through on­
going, mainstream programs.

This inspection looked at three major mainstream programs in the Department which
could serve homeless individuals: the ADMS block grant , Medicaid , and Supplemental
Security Income (SSI). This report presents findings concerning the ADMS block grant.
Two separate reports present findings related to Medicaid and SSI.

We examined the availabilty, accessibilty and appropriateness of each of these
mainstream programs for homeless individuals. " Availabilty" means whether a program
or servce exists in an agency or community and homeless individuals are eligible for it.
 Accessibilty" refers to the ease or diffcultyhomeless individuals have in finding and
utilizing available servces. "Appropriateness " refers to whether available , accessible
servces match the homeless client's needs in a broad sense.


BACKGROUN
The ADMS block grant , funded by the Public Health Servce (PHS) through the
Alcohol , Drug Abuse and Mental Health Administration (ADAMHA) was created
under the Omnibus Budget Reconciliation Act of 1981. The block grant is currently
administered by the Office for Treatment Improvement (OTI) in ADAMHA. A
proposed reorganization plan for ADAMHA could affect the administration of this
program.

States may use ADMS block grant funds for grants to community mental health centers
and for substance abuse prevention , treatment , and rehabiltation programs and
activities. States are not mandated to serve the homeless population with ADMS
monies; however , States may choose homeless persons as a special target population.

ADMS funding for FY 1991 was $1.33 billon. Nationally, 20 percent was being spent
for mental health servces and 80 percent for substance abuse treatment and
prevention. However , this ratio varies significantly across States. In recent years
substance abuse dollars have risen dramatically. In contrast , mental health dollars have
remained stable or , in some years , even declined. Recently, there has been growing
Congressional interest in how ADMS funds are being used, as well as some interest in
separating the mental health from the substance abuse portion of the block grant.

ADMS dollars represent a small portion of total State mental health expenditures. In
1987 , ADMS dollars accounted for only 2.3 percent of $9.3 bilion spent for mental
health nationally. According to the   1990 State Alcohol and Drug Abuse Profie ADMS
dollars represent about 20 percent of all funding for public sector alcohol and drug
abuse treatment servces.

Several Departmental initiatives impact the homeless population. Two of Secretary
Sullvan s 1990 Program Directives relate to this study: 1) Expand the use of cost-
effective human servces to ensure the quality and availabilty of effective assistance;
and , 2) Improve the health status of minority and low- income persons. Also , the
Secretary has created a task force , chaired by the Director of the National Institute of
Mental Health, which is charged with identifyng barriers to servce for severely mentally
il homeless persons.
METHODOLOY
During pre- inspection we conducted an extensive review of literature , including program
descriptions , Federal legislation and regulations , and articles , reports and research
papers of all kinds. We also talked with persons at PHS , the Social Security
Administration , Health Care Financing Administration; the National Association of
State Alcohol and Drug Abuse Directors , the National Association of State Mental
Health Program Directors and other related associations; foundations; and experts.
spent two days with a special mobile assessment unit in Chicago.

For the inspection on ADMS , we reviewed portions of the ADMS 1989 State reports
and 1990 State plans. We collected additional data from 224 ADMS mental health and
substance abuse grantees in 10 States: California , Hawaii , Ilinois , Ohio , Oregon
Maryland , Missouri , New Jersey, New York , Texas. We spoke by telephone with the
executive directors or program directors of these agencies about the inspection issues
related to ADMS. With those who said they serve homeless individuals , we also
discussed issues related to Medicaid and SSI.

Our review was conducted in accordance with the   Interim Standards for Inspections

issued by the President s Council on Integrity and Efficiency. A detailed description   of
the methodology for this inspection is in Appendix A.
                                       FINDINGS

Findig #1: May provders who receive ADMS dollar               say they serve   homeless
indidua but lack data on numbers served and servces provided.
We contacted 224 mental health and substance providers who States identified as
recipients of ADMS funds. Our first goal was to learn whether these providers serve
homeless individuals at all , regardless of how many they serve or the extent of servces.
On the basis of this very broad criterion , 168 of the 224 told us that they provide
servces of some sort to homeless individuals.

For many of these 168    grantees ,   ADMS dollars are a small    portion of the budget.
When we compared the ADMS grants of these 168 agencies (reported by States) with
their annual budgets (reported by the agencies), we found that for roughly 60 percent
ADMS dollars were only 10 percent or less of the annual budget.

While we recognize that ADMS funds may be a small part of their budgets in some
cases , we nevertheless believe that these agencies represent a broad and diverse
network of mainstream providers whose servces can be important in a solution to

homelessness. They include community mental health centers , community health
centers , cities and counties , regional boards , public and private not- for- profit agencies of
all tyes , hospitals , school boards , and others.

Whether ADMS dollars were a small proportion of their budget or not , we were
interested in (1) whether these providers use ADMS funds , specifically, to serve
homeless individuals , and (2) what ADMS- funded servces they provide to them.
Unfortunately, few respondents were able to answer these   questions. Some did not
realize that their agency received ADMS funds; others knew but said that their agency
does not track these dollars separately. And , we learned that few of these agencies are
tracking homeless clients or the servces they receive, whether ADMS- funded or not.

We then asked these respondents how many homeless individuals their agency served in
the previous program year. Again ,       many did not know because they lack data.      Fifteen
percent did not answer the question at all and half only gave a ball- park estimate. For
the few who did give a hard number , we were not always confident of its reliability.
Sometimes we suspected that it represented a duplicated count or included all homeless
clients served , including familes , rather than solely individuals with mental health
alcohol or other drug problems.



The servces these respondents most often said their agencies provide - to all clients in
general , and whatever the funding source - are: outpatient mental health and outpatient
substance abuse servces. Half provide both of these servces , with mental health
grantees far more likely to provide both than substance abuse grantees. Smaller
proportions provide inpatient mental health or substance abuse servces , or detox
servces. A few grantees offer none of these servces but rather case management
information and referral , education , or prevention servces instead.

The rest of this report presents what these 168 respondents said about the homeless
individuals they serve and the servces they provide to them. We refer to these
respondents subsequently in this report as "ADMS grantees.

Findig #2: Homeless     indidua have problems that are more desperate, severe, and
difcut to treat than those of other clients.
As a backdrop to any discussion of the availability, accessibilty and appropriateness
the servces of ADMS grantees for homeless individuals with alcohol, drug or mental
health problems , it is important to note that this is a very needy population. Over four-
fifths of our respondents said that the needs of the homeless clients they serve differ
significantly from the needs of their other clients.

Of the 293 comments they made about the differences between homeless individuals
and other clients , 290 referred to the severity of the problems of the homeless. Only
three respondents said that homeless people respond more positively to assistance
compared to other clients; however , the reason given was that homeless clients " are
more desperate."

The overwhelming impression made by these respondents is that homeless persons are
indeed more desperate. In Figure 1 is a list of some of the many ways in which they
said the needs of homeless clients differ from those of their other clients.

The most frequent comments emphasized
that homeless individuals need more
comprehensive servces , stable homes                 How Homeles         Clients DUrer

more social supports , and basic medical                   from Other Cl1ents
care. Person after person stressed that
their homeless clients were the neediest        . Lak boe/J1le or drag-tre env1enl
among the needy, that being homeless            . Lack lupport networlttamlly/frlendl
exacerbates all other physical or               . Prblema ar more cb1D1c
emotional problems while at the same            . Ar more 11   than other cUen"
time creating new problems. One
respondent summaried the sense     of
                                                . Have concurrnt medica   nee
many other comments: "They re
                                                . Nee mor comprehensi'9 I8Mce
                                 at the
absolute bottom when they get to us."           . Need baic    nee met lor trent    to lucced

Respondents also pointed out that
homelessness increases the difficulty of       Figure 1
treating mental ilness and substance
abuse. Many said that homeless people often require long- term treatment yet live day­
to- day; display a very short time perspective , thinking of only the immediate future;
need mental health treatment , but distrust , resist , and fear those who try to help; or are
transient - " a moving target " as one respondent called them.

Respondents reported that it can be too difficult to provide long- term     treatment ,   even
when a homeless person requests help. Some said that it is necessary        to stabilze these
clients with temporary housing, food or medical care for treatment to be effective.
Others said that when homeless     people seek servce ,   it may well be during an acute
crisis; they may demand immediate attention when they approach an agency, wanting
only a " quick fix. " They may approach an agency numerous times for such help, cycling
in and out for short periods rather than remaining for long- term treatment.

Given their many needs , homeless clients must seek out help from . a vast array of
servce providers: welfare agencies ,   Social Security district offices , community mental
health centers ,community health centers , clinics , emergency rooms , alcohol or drug
programs , shelters and food pantries , and others. The severity of their problems may
make it difficult for them to find appropriate help on their own.

Findig #3: For the most par grantees provide the sae servces             to homeless
indidua as to other clients. Some provide special servces.
Less than one- quarter    of the ADMS grantees who serve homeless individuals do any
outreach targeted specifically at them. Rather , homeless individuals come to them in
variety of ways. The most frequently mentioned is "walk- ins; " nearly 70 percent
mentioned this. However, they are also referred by social servce agencies , shelters or
missions , police , and the courts. Substance abuse grantees were more likely than
mental health grantees to report walk- ins (73 vs 60 percent) and court referrals (48
19 percent); mental health grantees were more likely to mention hospital referrals (32
vs 18 percent) and general ,   non- targeted outreach (30 vs 16 percent).

Once they make their way into these agencies , homeless individuals are most likely to
receive the same servces as non- homeless clients. The most frequently mentioned
servces which they share with other clients are residential treatment , outpatient mental
health counselig, outpatient substance abuse     counseling, and case management.
addition , 20- 25 percent of our respondents mentioned that their agency provides other
servces such as psychotropic medication , information and referral , medical care
vocational rehabiltation , or job placement.


Forty- five ADMS grantees (29 percent) also make special servces of some sort
available to homeless individuals: 35 percent of the mental health grantees and 25
percent of the substance abuse grantees. These servces differ primarily by being more
intensive and beginning to address fundamental needs for housing, food , and medical
care. Many of these respondents also said they use special servce- delivery approaches
such as outreach , drop- in centers , or case management to serve homeless individuals.
Seventeen of these 45 grantees receive McKinney funding of some sort for these special
servces. Three- quarters of them said they had developed these servces in response to
a Federal or State initiative; 40 percent specifically mentioned McKinney. This was the
only evidence we found that of a specific Federal initiative that had influenced ADMS
grantees to develop servces specifically for homeless individuals. The majority of
ADMS respondents we spoke with - most of them agency directors or program
directors - knew little about McKinney programs or Federal policies on homelessness in
general.

Findig #4: Respondents       say their servces are appropriate for homeles indivdua
but incomplete. They frequentl refer them elsewhere     for servces they do not provde
but referral   may not be effece.

Respond belie tht the agen' seres                are   genll apprprite for homele
invils.
Despite differing perceptions of the homeless population and their needs , most
respondents described their agencies ' servces , in a general sense , as appropriate for
them. However      they express a sense of frustration at not being able to provide   a
sufficiently broad range of servces for homeless people , sufficiently flexible servces to
engage them in treatment , and sufficiently intensive servces to meet their needs for for
stability, structure , and social support.

Comments about the appropriateness of servces reflect the fact that this is not a
homogeneous population. Respondents did not agree about the best way to approach
treatment for homeless individuals , nor did they recommend any single approach as the
most appropriate. Indeed , their comments reveal that they feel pulled in conflcting
directions in working with them.

Almt aU    resndts refer homele
theelves do not offer However
                                       inls
                                         ma
                                                  to othe agenc for seres
                                    clits       not follwthough, or ma not be able to
acces seres eLrewhee.
Ninety-six percent of respondents report making referrals; over 80 percent report
making "frequent" referrals. The most common referrals are for: emergency,
permanent , or transitional housing; primary medical or dental care; and vocational
               training. More referrals are made to social servce agencies and
rehabiltation or
emergency shelters than to other tyes of servce providers. A number of respondents
commented that some of their homeless clients need vocational training but there is no
vocational program to refer them to.

Referral may not be effective. A number of respondents said homeless people will
often not continue to search for an agency even upon referral. Follow- through may
take more persistence or resources than the life circumstances of homeless persons
allow. Lacking a watch or money for transportation , for example , can make it difficult
to follow through. Or , sometimes homeless persons may not follow through because , as
one respondent noted , they " have lost hope.

Referral may also not succeed because access to the servces where homeless clients are
referred is limited. We asked respondents whether homeless individuals have problems
accessing servces from other mental health or substance abuse providers in their
communities. Over 80 percent of them said there were problems; two- thirds mentioned
multiple problems.

As ilustrated in Figure 2 , some of these
problems relate to the instability of
homeless individuals and their transient
lifestyle , and others to the servce system
                                                   Problems the Homeles Pace
itself. The most frequently mentioned is             in Accesing Trment
that other servce providers see homeless
                                                 ./Provid8r1 le8 them CD   undesirable  clients
individuals as undesirable clients , either
                                                 ./ Be/Ilots   nol available; wa1tng lilts
because they look or act strange , are
                                                 ./Ho appropriat proiders to reler to
dirty or unkempt , resist treatment , don
follow through with appointments , don           ./Homeleu ca t pa; put at bottom 01111
conform to agency procedures or rules            ./Homelea CD Iralient/hCl 10 contact
or " agencies know that treatment of the         ./ Homeles lack IrclJrtal.oD
homeless is a lot of work, so they don
encourage them. " Other frequently
mentioned barrers were: waiting lists or      Figure 2
lack of openings in a program, lack of
transportation , and a lack of health insurance or funds to pay for servces.

Nearly one- fifthof our respondents said there are no appropriate servce providers
available to which to refer homeless individuals; a few specifically mentioned a lack of
programs for the dually diagnosed. And , some respondents commented generally that
there is community resistance towards developing programs because residents fear
homeless people.

Findig #5: Respondents     strongl agree that speal approaches are neeed to serve
homeles indidua      effectely.
Respondents were in marked agreement that , in terms of reaching a long- term solution
to homelessness for this population , servces must be modified in some way to serve
them effectively.

Some of the more general suggestions made were: (1) homeless individuals need to be
approached in ways that engage them in treatment; (2) comprehensive servces are
needed to stabilze these clients , since treatment cannot be expected to be helpful with
people who return to parks or metal grates to sleep at night; and , (3) servce providers
should offer less compartmentalized , more flexible servces. The picture that emerges
of an " ideal" servce provider is one that reaches out to homeless clients and , at a single
location , meets all their needs - not only those most immediately evident (such as food
shelter, and medical care) but those related to alcohol or drug dependence , mental
ilness , lack of housing, and joblessness.

Respondents made many other more specific suggestions on how servces to this
population could be enhanced: special outreach; a housing component of some kind;
medical servces; specially- trained staff; better coordinated programs to overcome the
fragmentation of the social welfare system; and , special programs for the dually
diagnosed.

On a related issue , we asked respondents whether they thought that homeless
individuals need separate mental health or substance abuse programs designed
specifically for them, that is , programs set apart from the traditional treatment system.
We found that opinion was split on this issue: 54 percent favored separate programs
and 42 percent felt that they were neither needed or desirable. Significantly, however
almost three- quarters of those opposed to separate programs , stil felt that traditional
servces should incorporate different approaches of some kind - special outreach , for
example - to reach this population.
                      RECOMMENDATIONS

Ths study confirmed earlier findings that homeless individuals have severe , multi­
faceted problems. Their many needs range from the basics of food and shelter to more
complex needs for mental health and substance abuse treatment. Agencies try to meet
these many needs , but experience great difficulty in doing so - often due to lack of
resources.

As stated in our findings , 96 percent of ADMS respondents told us that they must refer
clients to other providers for servces they are unable to provide. Yet the referral
process is often an obstacle for homeless people seeking help. Some lack the skills to
follow through; others may not have transportation to the assortment of agencies they
must visit for servces. The result is that many homeless individuals fall through the
cracks and go unserved. This , combined with various obstacles inherent in the servce
system itself that limit the availabilty or accessibility of servces , may limit access to
servces for them.



We conclude that it is critical for agencies to work together to develop the expertise
needed to serve homeless individuals and to ensure comprehensive servces for this
population. Our recommendations emphasize the ideas of linkage and coordination
among different levels of government , between government agencies , and within local
servce systems. The themes of linkage and coordination are stressed in all three
reports related to this inspection (see separate reports on SSI and Medicaid). We
should also note that the Secretary named servce integration a priority for the
homeless population in a speech in the spring of 1991.

In many States , linkage and coordination are already priorities , while in others they
have yet to be developed. At the end of our study, we spoke with the coordinators for
the McKinney- funded Projects for Assistance in Transition from Homelessness (PATH)
programs in the 10 sample States to generally discuss potential recommendations arising
from this study. They agreed that linkage and coordination are critical elements for
servng such a needy population.

Constructing recommendations that will have widespread impact is difficult , since there
is such a large variety of servce providers and funding streams. Furthermore , the
scope of our recommendations is limited by the nature of ADMS as a block grant
program. Also , we are mindful that ADMS grantees are only one group of providers
among many who serve homeless individuals , and that ADMS dollars are only one
piece of the funding pie.

Nevertheless , we do consider ADMS a valuable resource for homeless individuals.
ADMS grantees represent a large network of servce providers nationally who can
supply both treatment and other needed servces. It appears that the majority are
already servg homeless individuals , albeit in a limited way for the most part. We
believe , therefore , that the ADMS block grant should not be overlooked as a resource
for homeless individuals.

Our goal in these recommendations is to faciltate a first step toward a long-term
solution for homeless individuals who are mentally il or have alcohol or other drug
problems. They are designed to help reduce the number of homeless individuals who
go unserved and to ensure comprehensive servces that are accessible and appropriate
for this population.

Recommendation #1: The PHS should provide           technca asistace to States and other
PHS-fuded grtees who serve homeless          indidua.
The technical assistance provided should include , but not be limited to , the two items
specified in Recommendation #2 below.

Recommendation #2: The      ADAM should isue an advory letter to al States with
the nex round of fudig. The letter should undersre the importce for ADMS
grantees to include the followig components in servg homeless indidua with
menta heath, alcohol, or drg problems:

      Specialized training for servce providers , shelter personnel , and volunteers for
      dealing with the unique problems of this population. For example , agency
      personnel should be trained to work with staff from State mental institutions
      jails , nursing homes , and other residential settings to develop release plans for
      individuals coming out of these institutions.

      Memoranda of Understanding or other formal agreements with other agencies             in
      the community. These would address information sharing, cross- training,
      technical assistance ,   development of model programs (including outreach
      application procedures , resource referral , and coordination with the broader
      servce community), and model release plans (including housing) for
      institutionalized persons.

      Other agencies would include ,    but not be limited to , Social Security district
      offces , McKinney-funded providers , local mental health and substance abuse
      authorities and departments , and local welfare offices.

COMM
We received comments from PHS and the Assistant Secretary for Planning and
Evaluation (ASPE). We wish to thank those who commented on this report. The text
of their comments is in Appendix C.

Although PHS concurs with the principles underlying our recommendations , they do not
agree with us that the ADMS block grant is an appropriate mechanism to implement
them. Instead , they propose to rely on their current McKinney- funded programs.

We believe that both the McKinney Act and the ADMS block grant are valuable
resources for improving servces to this population. A previous OIG study on the
McKinney Act revealed widespread agreement among respondents that McKinney alone
is not the solution to homeless ness , and that greater efforts should be made by
mainstream Federal programs to serve the homeless. The ADMS grantees in this study
represent an extremely broad and diverse national network of providers , a large
majority of whom are providing some level of servce to homeless individuals. We do
not think that such a broad mainstream program , funded at $1.33 bilion , should be
overlooked as a mechanism to address the problems identified in this study. We think
that PHS, in bringing its resources to bear on this network, can help improve
considerably the response of these providers to   homeless individuals.

We continue to recommend a strong technical assistance role for PHS. However we
have modified our language in the recommendation slightly. We recognize that PHS'
primary responsibilty is to States for the block grant , and to their local McKinney
grantees , who in turn can work - and , we hope , would take every opportunity to do so ­
with local ADMS grantees.

We revised the first finding and made some editorial changes elsewhere in the report
accommodate concerns raised by PHS and ASPE.
                              APPENDIX A

GEN COMM REGARING TH DATA
We collected both qualitative and quantitative data for this inspection. The
qualitative data presented in the reports is not weighted. Quantitative ADMS data
was used to make national projections (described later in this Appendix) based on
weighted State averages for our sample States. For the most part ,   data collected
from ADAM States and respondents was for 12 month periods representing
fiscal years 1989 or 199.

In general ,   data from States and respondents regarding ADMS expenditures was very
                                    variable. They rarely kept this data in a
difcult to obtain as well as extremely
complete or uniorm manner. Also , State fiscal years varied , as did those of
respondents.

STATE SAMLE SELCTON

We used a stratified , multi-stage methodology in choosing States, since we intended
to make national projections with the quantitative data. We wanted to talk to
ADMS grantees and certain McKinney-funded grantees (descnbed later in the
Appendix), who could discuss Medicaid and SSI. Thus we divided the 50 States into
two categories: those with both ADMS grantees and more than one McKinney
grantee , and those with ADMS grantees and one or no McKiney grantees.         (As
noted in the Methodology section , McKinney respondents were Health Care for the
Homeless grantees or grantees of research and demonstration projects funded by
ADAMHA. ) We selected six States from the first category and four States from the
latter. The sample States from each category were selected, with replacement, based
on probabilty proportional to the estimated FY 1991 ADMS funding.

The table lists the sample States , estimated amount of ADMS 1991 funding, and the
States ' percent of total ADMS funding. The sample represents a significant portion
of total ADMS funds.


                       ESTIMTED ADMS            PERCENT OF TOTAL
       STATE           FUS FOR        FY 1991   ADMS   FUS
       California      $151 048,450             13%
       Hawaii              077 746
       Ilinois             484 994
       Maryland            274 979
       Missouri            789,494
        New Jersey       169 435
        New York      103 642, 170
        Ohio                  814
        Oregon         12, 583 566
        Texas                804
Total                $559 530 452              47%

Total FY 1991
Estimated
ADMS Funding           187 357 962


SAMLIG MEODOLOY FOR ADMS REPONDEN
We intended to sample 30 grantees from each State which would represent a
proportional mix of mental health and substance abuse grantees.    Respondents were
program directors or managers. The number of grantees sampled in each of these
two categories was determed by the proportion of FY 89 mental health ADMS
funding to substance abuse funding in each State. This   was the most recent year for
which States had this inormation. We contacted the 10 States and asked for the
amount of ADMS funds they received in FY 1989 , and the total amount that went to
mental health grantees and substance abuse grantees. In addition , we asked for a
listing of the mental health grantees and substance abuse grantees and the amount of
ADMS funding each received.

In most States , mental health and substance abuse grantees were then selected with
probabilty proportional to the amount of the ADMS grant received. In instances
where the grant money was given to counties , we selected six counties proportional
to mental health and substance abuse funding. We then selected five grantees
within each county with probabilty proportional to the amount of the ADMS grant
received.

There were some exceptions to these two basic methodologies. In those States
where the amount of ADMS grant money for 1989 was not readily available , we
chose a simple random sample of grantees. In instances where a grantee
subcontracted over 50 percent of its ADMS funds, we asked the grantee to identify
the two subgrantees who received the largest proportion of grant funds, whom we
then intervewed.

Several grantees were dropped because they were no longer receiving ADMS funds
in FY 1991. Our final sample consisted of 224 grantees in 10 States. There were 95
mental health and 129 substance abuse grantees. The subsampling in each State was
independent of that conducted in any other State.




                                        A ­

Ths methodology enabled us to capture ,
                                     in most cases , a signficant portion of
States' ADMS funds in our sample. The following table gives the percent of ADMS
mental health and substance abuse FY 1989 funds sampled in each State.

                    PERCENT OF SAMLED                 PERCENT OF SAMLED
                    ADMS MENTAL HEALTH                ADMS SUBSTANCE ABUSE
                    FUS   TO TOTAL STATE              FUNDS TO TOTAL STATE
                    ADMS MENTAL HEALTH                ADMS SUBSTANCE ABUSE
 STATE              FUS                               FUS
California          24%                               12%
Hawaii              82%                               54%
ilinois             62%                               46%
Maryland            41%                               35%
Missouri            77%                               39%
New Jersey          45%                               22%
New York            12%                               28%
Ohio                12%                               44%
Oregon              68%                               39%
Texas               78%                               14%

We spoke with sampled respondents by telephone. Our first objective was to learn if
the grantees served homeless individuals. We did not pursue further questions with
the 56 grantees who said they do not serve the homeless. We discussed the
availabilty, accessibilty and appropriateness of their servces and Medicaid and SSI
for this homeless population , with 168 grantees who did serve them. We also asked
respondents to provide basic data on their total agency budget and ADMS grant
clients served , including homeless clients , and Medicaid reimbursement.

ADMS PROJECTONS


We made two national projections in this inspection: (1) the percent of ADMS going
to grantees that told us that homeless individuals were among their served
population , and (2) Medicaid funds as a percent of total budget of the grantees.
The projections are based on what these ADMS respondents told us. In some cases
they could not give us numbers, or could only give estimates. The Data Verification
Sheet we sent to respondents prior to callng them is in Appendix B.

The definition of " homeless " we asked respondents to use in providing this
information was: "A person who is not a member of a homeless family, and who
lacks stable housing (including a person whose primary residence during the night is
a supervsed public or priate facilty that provides temporary ling accommodations
or a person who is a resident in transitional housing.




                                        A ­

These projections are based upon unbiased estimates derived from the sample of
grantees  withi  each State. Estimates of the totals, and the variance associated with
each total , accounting for the sub-samplig within each State, were calculated using
methods described by Cochran . Given these totals , the percentages , as ratios , were
easily derived.

The results of these estimates are presented , by State and overall , in the following
tables.




           1 Cochran ,   William G.   , (1977)   Sampling Techniques.   John Wiley & Sons ,   New
York, Sec. 11.9 , pg. 306.



                                                     A­
                       Percent of ADMS Money Associated with
                              Grantees Servng Homeless

                            Mental Health              Substance
                            Grantees                  i\buse CJrantees



       NEW JERSEY           100.                      64.
       MISSOURI              92.                      91. 7%
       CALIFORNIA            45.                      77.
       OHIO                  75.                      83.
       ILLINOIS              66.                      93.
       NEW YORK                                       64.

       Strata Avg           71.5%                     72.4%

       TEXA                 82.4%                      75.
       Mi                   87.                       100.
       OREGON               98.                        84.
       HA WAIl              38.                        60.

       Strata Avg           72.4%                     74.

       Overall Avg          71.8%                     75.

       Std. Err.
           21.8%                     21.8%
       Precision             49.                      47.
       L 90% CI
             35.                      39.
       U 90% CI             107.                      111.6%


Because of the extreme variabilty in the data , the upper 90 percent confidence limit
exceeds 100 percent.   Logically, the upper limit should be truncated at 100 percent.
The coefficient of variation for Mental Health programs is 30 percent and that for
Substance Abuse programs is 29 percent.




    2 The precision is defied      as the   semi-width of the confidence   interval as a
       percent of the estimated    mean.

                                              i\ ­

                    Medicaid Funds as a Percent of Total Budget
                                by Type of ADMS Grantee



                    NEW JERSEY           18.
                    MISSOURI                          13.
                    CALIFORNIA           16.
                    OHIO                 25.          12.
                    ILLINOIS
                    NEW YORK                          35.

                                         13.          13.

                    TEXA                  1.6%         1.8%
                    MAYLD
               15.
                    OREGON               28.
                    HAWAII

                                                       1.7%

                    Weighted Avg

                    Std Err                   82%         87%
                    Precision            33.          25.
                    ev.                  20.          15.
                    L 90% CI

                    U 90% CI             12.

This data demonstrates less variabilty than that in the ADMS funds data. However
the coefficient of variation is below 10 percent for only one of the estimates , the
percent homeless among Mental Health grantees.




      percent of the estimated    mean.
    3 The precision is defined as the semi-width of the confidence
                                                                     interval as a


                                         A­
SAMLIG MEODOLOY FOR                      OT REPONDEN
McKi Gra
The 33 McKinney grantees in our sampled States included 25 Health Care for the
Homeless grantees and 8 other providers who have received McKiney research
demonstration grants from either the National Institute for Mental Health or the
National Institute on Alcohol Abuse and Alcoholism. We spoke by telephone or in
person with these respondents. The focus     of our discussions   was the availabilty,
accessibilty and appropriateness of Medicaid and SSI. We were especially interested
in comparig their perspectives - as providers whose mandate is to serve the
homeless - with those of ADMS grantees , who have a much broader mandate.

Soc Secu Ditrt Ofe Respond
These 25 respondents included district managers , assistant district managers and
claims and servce representatives in district offces near the McKinney grantees in
the sample. We discussed their experiences servng this population, their opinions
about how to enhance access to SSI for them , and their views on the role of SSI in a
long- term solution to homelessness.

State Medaid Staff

For background ,   we reviewed portions of the Medicaid plan for each of the
sample States , looking at eligibilty criteria and servces relevant to homeless mentally
il or substance abusing individuals. We then talked by telephone with 16 Medicaid
staff in the 10 States to clarify our understanding of eligibilty and servces, and to
ask if there were any special State Medicaid policies , procedures or special initiatives
which affect this population.




                                          A ­

                               APPENDIX 

                             DATA VERICATION SHEET

Please have the following background information available for our telephone
discussion; do not return it to us by mail. If possible , we want this data for Federal
Fiscal year (FFY) 1990. However , if you maintain data on a State fiscal year (SFY)
or calendar year instead ,   please tell us when we call.

Please provide only the information that you maintain in your existing management
information system; otherwse , do not generate it specifically for us. We realize that
you may not know or keep some of this information. In this case , we ask that you
provide your best estimate , if you are comfortable with doing so. If not , just tell us
you don t know.


For FFY. SFY or Calendar 1990 ACTUAL or                     ESTIMATED


1. Total agency budget:

2. Total ADMS block grant
funds received:

3. Total McKinney funds
received:

4. Total clients served by your
agency (unduplicated count; all
programs or servces):

5. Total clients served by your
agency (unduplicated count)
with ADMS dollars:




    1 Alcohol ,   Drug Abuse and Mental Health Servces Block Grant
             ........................




                                             DATA VERICATION SHEET
                                                        PAGE TWO

6. Total 
     homeless individuals
over 18 served by your agency

(unduplicated count) ..........

             a. # mentally              il (no

             substance abuse problem):

             b. # substance abusers (not

             mentally il):
             c. # dually diagnosed

             (both problems)


7. Total 
     homeless individuals over
       served by your agency

with ADMS dollars (unduplicated
count)
             a. # mentally              il (no

             substance abuse problem):

             b. # substance abusers (not

             mentally il):
             c. # dually diagnosed

             (mentally il and

             substance abusing)

8. Total Medicaid reimbursement
OR percent of total agency budget
that was Medicaid reimbursement

9. Number OR percent of total
clients served by your agency
who were on Medicaid

10. Number OR percent of total 
                    homeless
individuals over 18 served by
your agency who were:
                                        on Medicaid:



                                        on SSI:





       2Person who is not a member of a homeless family, and who lacks stable housing
(including a person whose primary residence during the night is a supervsed public
or private facilty that provides temporary living accommodations , or a person who is
a resident in transitional housing.
APPENDIX C


 AGENCY COMMNT





      C - 1

                                                                                  .-
             DEPARTMENT OF HEALTH &. HUMAN SERY-ICES
                                                                                            PubliC Health Service




             FEB -7 199

                                                                                           Memorandum
Date


From
        Assistant SecreL3ry for Health


S ub,eCt     Office of    Insrector General          (OIG) Draft Report " Alcohol                        Drug,
             and Ment.-l Health Services for               Homeless Individuals
             Inspector General , OS


            At t a c he d are   the Pub 1 i c He a I t h           vi c e ' s
            subject OIG draft         report.              S e r       on the   (p H S) co mm en t s
                                         The report recommends that PHS:
            (1) provide technical assistance to State and local Alcohol

            Drug Abuse , and Mental Health Services (ADMS) Block
                                                                   Grant
            recipients and other PHS-funded grantees who serve homeless
            individuals , and (2) issue an advisory letter to all States
            underscoring the importance for ADMS grantees to include
            specialized training and formal agreements with other community
            social services agencies in serving homeless individuals with
            alcohol , drug abuse , or mental health (ADM) problems.
           We concur with the principles underlying these recommendations
           and explain that the ADMS Block Grant may not be the most
           a p pro p ria t e me c h ani s m t 0 imp 1 e men t
                                                              the r e c 0 mm end a t ion s .
           Congress chose to target the problems                 of the homeless
           population through the McKinney                 Act.  The McKinney Projects for
           Assistance in Transition from Homelessness is the program
           targets     the homeless population with dual diagnoses of serious
                                                                                             that
           mental illness and substance abuse disorders.

           In our comments , we note that PHS has provided and will
           continue to provide a variety of technical assistance
                                                                    to the

           States and its other grant recipients. We highlight activities
           undertaken by the Alcohol , Drug Abuse , and Mental Health
           Administration to address the programmatic needs of homeless
           individuals with ADM disorders. We identify activities

           administered by the National Institute on Alcohol Abuse and

           Alcoholism that evaluate the effectiveness of comprehensive

           service interventions designed to meet the special needs of
           various subgroups of homeless              individuals.
                                                         Lastly, we mention
           research and demonstration programs administered by the
           National Institute of Mental Health for homeless mentally
           individuals.                                                                                  ill
           Tho ugh we d 0 not  s p e c i f i call y co mm e n t on the r e co mm end a t ion s
           the companion OIG draft reports on Medicaid and Supplemental
           Security Income (551) for homeless individuals, we see these
           programs as essential components of an overall strategy for
           meeting the needs of homeless individuals with ADM disorders.
           We are pre par e d to t a k e a p pro p ria te a c t ion s t 0 b ring a b 0 u t
g rea t e r coo per at ion   and co 11 a b 0 rat i n bet ween PHS pro g r ams and
Medicaid and 551.
We include also a       series     of te   hnical comments for your
c;o'1sideracion.

                                         o.lh
                                        Mason         , Dr.

    achClent
                                                     "" ""




    PUBLIC HEALTH SERVICE (PHS) COMMENTS ON THE OFFICE OF INSPECTOR
        GENERA (OIG) DRAFT REPORTS " ALCOHOL, DRUG, AND MENTAL
         HEALTH SERVICES FOR HOMELESS INDIVIDUALS:     MEDICAID

             AND HOMELESS INDIVIDUALS: " AND " SUPPLEMENTAL

               SECURITY INCOME AND HOMELESS INDIVIDUALS"


 Genera 1 Commen ts


These three reports present the findings and recommendations of a

study looking at three large , main-stream programs that could

serve homeless individuals as part of their service population:
the Alcohol, Drug Abuse , and Mental Health Services (ADMS) Block

Grant; Medicaid; and Supplemental Security Income. All three
reports rely on the same methodology: interviews with Federal

program staff and national organization representatives; and

telephone surveys of a sample of local ADMS grantees in ten

randomly selected States , McKinney Mental Health Care for the

Homeless Block Grant and research demonstration grantees in those
States, as well as staff in the State Medicaid and Social
Securi ty district of fice in the same areas as the McKinney
responden ts .
The general findings across the three studies agree with

inforra tion from other sources. For example , these studies
document the extensive service needs of homeless individuals and

the difficulties they face    accessing and maintaining
eligibili ty for             in

                 these services. Enhanced coordination of the
many programs that provided services to the homeless population

is generally a common theme in many       studies.
                                               The divergence of
opinion between service providers and mainstream program
officials over the role of those programs in providing assistance
to homeless individuals has also been frequently discussed.
However, much of this information is anecdotal; very little
systematic data is available with the exception of a few studies
in individual localities or treatment settings.
We also want to emphasize two general issues which are of concern
to us.   The first issue concerns the use of language. Using " the
homeless " to refer to individuals is depersonalizing; being
homeless is difficult enough without also losing a sense
identity.   The substitution of " homeless persons,
individuals, " or even the homeless population" wouldhomeless
                                                       help
considerably.   Secondly, we want to re-emphasize that, despite
the careful wording around the estimates, the report will leave

the imp.ression that significant amounts of ADMS Block Grant money

are being spent on services to homeless individuals with alcohol

drug abuse and mental disorders. As stated in the report,

roughly 75 percent of local providers receiving ADMS funding

provide some level of service to homeless individuals. However,
the level of service , and the numer of homeless individuals
receiving it, could be as little as one outpatient visit to one
homeless person in the past year.


                                   C-4

                                  ...              ...


We have no specific comments on the recommendations contained in
the reports on Medicaid and Supplemental Security Income. We do,
however, see these programs as essential components of an overall
national strategy for meeting the needs of homeless individuals
wi th ADM disorders. We are prepared to take whatever actions are
appropriate to bring about greater cooperation and collaboration
between PHS programs serving the target population and Medicaid
and Supplemental Security Income.

OIG Recommendations
     The PHS should provide technical assistance to State and

     local ADMS grantees and other PHS funded grantees who serve
     homeless individuals. (The technical assistance provided
     should include , but not be limited to, the two items
     specified in Recommendation No. 2 below.

     The ADAM should issue an      advisory letter to all States
     wi th the next round of   funding. The letter should
     underscore the importance for ADMS grantees to include the
     following components in serving homeless individuals with
     mental health , alcohol, or drug problems:
          Specialized training
          Memoranda of Understanding or other formal agreements

          with other agencies in the community. 

PHS Comment

We concur with the principles underlying these two

recommenda tions   However, we do not believe that the ADMS Block
Grant is the appropriate mechanism with which to implement the
recommendations. Congress has chosen to target the problems of
the homeless population by the passage of the MCKinney    Act.The
McKinney Projects for Assistance in Transition from Homelessness
(PATH) is the program which targets the homeless population with
dual diagnosis of serious mental illness and substance abuse
disorders.   The PATH program specifically provides for     staff
training, including training of individuals who work in shelter,
mental health clinics , substance abuse programs and other sites
where homeless individuals require services.


In addition, PHS has provided and will continue to provide a wide
variety of technical assistance to recipients of its
example, ADAM currently funds several specialized
                                                         grants.
                                                               For
clearinghouses and technical assistance centers dealing with the
programmatic needs of homeless individuals with ADM disorders.
Also, the National Institute on Alcohol Abuse and Alcoholism
(NIAA) currently administers the Community Demonstration Grant
Program for Alcohol and Other Drug Treatment for Homeless
 Individuals, and the Cooperative Agreements for Research

Demonstration Projects on Alcohol and Other Drug Abuse Treatment

 for Homeless Persons. These two programs are evaluating the

effectiveness of comprehensive service interventions designed to

meet the special needs of various subgroups of the homeless

popula tion.   In addition, theNIAA supports a numer of other
research grants that are looking at the relationship of alcohol

use and homelessness. These research and research demonstration

projects will provide the basis for this technical assistance.
The National Institute of Mental Health also administers the
McKinney Research Demonstration Program for Homeless Mentally III
Adul ts and the Mental Health Research Program on Homeless
Individuals.
However, PHS is unable to directly provide technical assistance
to local ADMS grantees. We believe that the States are in a
better position to develop training for local grantees and to
encourage the development of agreements among providers.

                                          --                          --   --     --
                                                                                  ----




Technical Comments



Page i, first paragraph under " BACKGROUND"     The figures given

in this paragraph do not reflect the mo     recent research. The
paragraph should be rewritten as follows:

            Recent research suggests that approximately one- third
            of the homeless are severely mentally ill, at least 40
            percent have problems with alcohol, and an additional
            10 percent abuse other drugs. In addition, it is
            estimated that at least one- half of the homeless
            mentally ill population also have alcohol or other drug
            problems.
This is also true on page 1 of the introduction, in the second

paragraph under " Scope. "


Page i, 4th paragraph, last sentence    It is fairly well

established  State Alcohol and Drua Abuse Profile , National
Association of State Alcohol and Drug Abuse Directors, 1990) that
the ADMS Block Grant, nationally, represents approximately
20 percent of all funding for public sector alcohol and drug
abuse treatment services. Accordingly, this information should

be used in lieu of the last sentence as it currently reads.
Page i, third paragraph under " BACKGROUND"    Please change the

last sentence to read: " States are. not required to specifically
serve the homeless population with ADMS monies; however, States
may fund services for homeless mentally ill persons and homeless
substance abusers.
Page ii , second paragraph                     under                      Please change
 problems "               to characteristics. The
                                                       " FINDINGS"


                                                                same sentence is in the Table
of Contents.


Page       ii, last sentence                   After institutionalized persons,                     please
insert          " (e. g., in jails and hospitals).
Table of Contents. The last word of the third                                         finding,
 servicese "                   should be corrected to read                      services.
Page 1, second paragraph under "                       SCOPE"                    Plea:e add after
 dually diagnosed" a defining clause, " those individuals with co­
occurring mental health and substance use disorders.

Page 2, as noted in the comment for page i, please change the
last sentence in the second paragr ph to read: " States are not
required to specifically serve the homeless population with ADMS
monies; however, ' States may fund services for homeless mentally
ill persons and homeless substance abusers.

                                    , "





 Page 2, fifth paragraph -- The Task Force on Homelessness and

 Severe Mental Illness is chaired by the Director of NIMH.

 Page 4 , the last sentence in the third paragraph needs to be

 modified. We suspect that the first issue is that the counts

were not unduplicated" and the second issue that respondents

were reporting non-ADMS homeless clients      , homeless
 families)                               (e.





Page 5, finding No.  , first paragraph -- Please clarify the
  very needy population.  Is this a reference to homeless persons
with ADM disorders or any homeless person?
Page 6, figure 1 -- Please insert " persons" after homeless.

Also, the first bullet needs to be reworked. First, does

 stable" home mean permanent housing? Second, should " stable

housing" be linked with " drug- free environment?"

Page 7 , second paragraph -- We suggest deleting the last two

sentences. The first of these sentences, " This was the only...

is unclear , and the second sentence   the majority of ADMS...

is misleading. The interpretation of these statements could be

very different depending on who the actual respondents were. For
example, why would line workers know about funding sources (e. g. ,
Federal legislation)?

The final sentence on this page about homeless clients and job

skills is too general and should be deleted unless there is more

tha t   can be said.

Page 8, first paragraph -- As is, this paragraph has a victim

blaming tone, and needs to be toned down. For example, " Follow-
through may take more persistence or resources than the life
circumstances of homeless persons allow.   Consider the life
circumstances of a homeless person, and the lack of resources

such as transportation or clocks.
Page 8, figure 2 does not only address homeless persons with ADM
disorders. These  problems are, however, often particularly
relevant to the homeless mentally ill population.
Page 8, fourth paragraph, first sentence -- Please add after
 dually diagnosed" a defining clause, " those individuals with co­
occurring mental health and substance abuse disorders.
Page 10, first paragraph , first sentence -- This sentence should
be revised to read: " This study confirmed earlier findings that
homeless individuals...

Page 10, fourth paragraph, second sentence -- The title for the

PATH program is the McKinney Pro jects for Assistance in



                                  C-8
Transition fI2 Homelessness (PATH)   program.
Page A2 , first sentence -- In the Sampling Methodology
                                                        section,
please clarify who , specifically, were the desired respondents

for the sampled " grantees.   Were they program managers or
clinicians?   Did it vary among the 30 grantees?
Page B2. The footnote on the data verification sheet
                                                       contains a

definition that differs from the one provided on page A­

we suspect , the one that was actuallyused.               3 and
is,
                                              The one on page A-
would appear to exclude those individuals who live on the
streets.  Both definitions exclude the " at imminent risk"
population included in most MCKinney programs. Both definitions
also include individuals living in transitional housing
they are rarely included in other definitions of the     although
popula tion.                                         homeless
('                                                               , "
                                    ~~~

                    DEPARTMENT OF HEALTH a. HUMAN SERVICES	                                                    \ Ofce of th   Sec
     ""0
                                                                                                               18'ashingon . D. C.     20201
                                                                        NO       2 2      199

             TO:	                       Richard P. Kusserow , Inspector General
             FROM:	                     Ass istant Secretary for Planning and
                                        Evaluation
            SUBJECT :	                  OIG Draft Reports: "Supplemental Income for Homeless
                                        Individuals" Alcohol, Drug Abuse and Mental Health
                                        Services for Homeless Individuals" , and "Medicaid and
                                       Homeless Individuals" 

                                                                               (:V	
                                                                             OtEl- os--
                                                                                            - 00(;&0


                                                                                                9/-     ooo
                                                                                                               06"I-C       - fl-Od6




            This memorandum provides comments on the three subj ect draft
            inspection reports which examined the availability, accessibility
            and appropriateness of the Supplemental Security Income Program
            (SSI), the Alcohol, Drug and Mental Health Services (ADMS) block
            grant, and Medicaid programs for homeless individuals who have
            mental health, alcohol or other drug problems.

           In general, the assessments found         1) most ADMS grantees
           provide some, but usually not specialized, services to homeless
                                                                                that:
           people  2) the type and adequacy of those services are unclear
           due to the lack of data on the quantity of services or their
           impact: 3) access to SSI and Medicaid programs is limited
           al though special efforts are now being made by most SSA Field
           offices to increase access to SSI. Another finding is that most
           program providers and SSA field office staff recognize that                                                         it
           especially difficult for the mentally ill or substance abusing
           population to access SSI and Medicaid programs.

           Overall, the findings in these assessments are consistent with
           what we are learning from other studies and program monitoring,
           particularly with respect to the need for improved linkage and
           coordination among different levels of              between
           government agencies, and wi thin local service systems.
                                                                                           governent,
           Unfortunately, the data available for these assessments did not
           allow for more specific findings concerning numers served, the
           quality of services provided , or for descriptions of successful,
           generalizable models.


           Nevertheless, the findings and recommendations from these three
           assessments will help shape a current initiative to simplify
           programs and make them more accessible to severely mentally
           homeless individuals. Your staff has already briefed the Federal
                                                                                                                               ill
           Task Force on Homelessness and Severe Mental Illness and
           outside Advisory Committee regarding these assessments. The Task
                                                                                                                         its
           Force will recommend a plan of action 	         rP-ta     the end                    th
           of January, 1992.

                                                           . .




Page 2 - Richard P. Kusserow


I have a few additional comments listed below and editorial
comments written in the attached copies of these reports.

Alcohol Drua and Mental Health Services for Homeless           Individuals
     The background section on page i should include           a sentence
     or two in the discussion of the McKinney Act programs, on
     the proj ects for Assistance in Transition from Homelessness
     (PATH) program, its purpose , and a clarification that while
     states award most of their PATH funds to ADMS grantees,
     those funds are not included by grantees that report
     providing services to the homeless mentally        ill.
     A statement in the background section indicates that the
     ADMS dollars spent for substance abuse treatment as a
     portion of state expenditures for this purpose is unknown.
     We understand that as of 1990, there is an indicator in the
     National Drug and Alcohol Treatment Utilization Survey that
     provides this information.

     In the findings section on page 4, the third paragraph under
     finding #1, this statement should be reworded to clarify
     that the dollars referred to go to grantees that use an

     unknown but crobablv small cortion of their grants to serve

     this population. One could interpret the current statement

     to mean that over 70% of their block grant funds serve this

     population.
     Appendix A, pages 4 and 5 contain very low percentages for
     New York state ADMS funds that go to grantees serving the
     homeless, and the extent to which ADMS grantees in New York
     state seek Medicaid reimbursement for services. These
     estimates are so at odds with those for other states in the
     sample and with New York' s usual participation in such
     programs that you may wish to re-check them.
Succlemental Securitv Income and Medicaid for Homeless

Indi viduals
     The same data issue concerning New York state described
     above for Appendix A of the ADMS Report applies to Appendix
     A of the reports on SSI and Medicaid as well.
     On page iii of the Executive Sumary, we suggest adding a
     recommendation to ensure that a national survey of the
     homeless population being planned for 1992/1993 include the
     proportion receiving SSI benefits.
Page 3 - Richard P. Kusserow


    The description of the targeted federal response to
    homelessness on page 1 of all three reports would be more
    complete with the addition of the following sentence after
    the second sentence of the  fourt paragraph:   n An additional
    $200 million in non-McKinney federal funds is targeted at
    the homeless population. II Total spending in these targeted
    programs will rise to over $1 Billion in FY 1992.




                                  :' G

